                              United States Government Accountability Office

GAO                           Testimony
                              Before the Subcommittee on Federal
                              Workforce, Postal Service, and the District of
                              Columbia, Committee on Oversight and
                              Government Reform, House of Representatives
For Release on Delivery
Expected at 2:00 p.m. EDT
Tuesday, September 16, 2008   DIVERSITY AT GAO
                              Sustained Attention Needed
                              to Build on Gains in SES
                              and Managers
                              Statement of Frances Garcia
                              Inspector General, GAO




GAO-08-1156T
Mr. Chairman and Members of the Subcommittee:

I am pleased to be here today to discuss the results of my review of GAO’s
diversity programs and to participate in this hearing with the other
legislative branch Inspectors General (IG) examining diversity at the top
levels of five legislative branch agencies. As you know, in today’s
multicultural workforce, diversity can be an organizational strength that
can bring a wide variety of perspectives and approaches to bear on policy
development and implementation, strategic planning, and decision
making. Organizations that promote and achieve a diverse workplace can
attract and retain high-quality employees. GAO—similar to other federal
agencies—faces both opportunities and challenges in increasing the
diversity of its top leadership and workforce. The bottom line is that
diversity makes good business sense.

Because of your interest in the effectiveness of diversity program offices
and the underrepresentation of women and minorities in legislative branch
agencies, my testimony today addresses (1) whether GAO’s diversity
programs and initiatives are achieving better representation of women and
minorities in the agency’s Senior Executive Service (SES) and managerial
ranks (GS-15), and their equivalents;1 (2) the accuracy and completeness
of the fiscal year 2007 complaint and discrimination data reported to
Congress; and (3) the independent authority and reporting relationships of
the Managing Director of GAO’s Office of Opportunity and Inclusiveness
(OOI). As you know, my testimony today is based on a report requested by
you and released today.2

To address our first objective, we identified and compared GAO’s diversity
management practices against those identified by the U.S. Equal
Employment Opportunity Commission (EEOC) Management Directive 715
(MD-715)3 and nine expert-identified leading diversity management




1
 In GAO, SES positions and their equivalents are SES, Senior Level, and executive schedule
positions. GAO has few actual GS-15 positions; their equivalents within GAO’s pay systems
are Band III analysts and specialists (Assistant Directors), Level II managerial and
supervisory positions, Level-IV professional technical specialists, and Band III attorneys
(equivalent to Band II Attorneys in 2002-2004).
2
GAO, Diversity at GAO: Sustained Attention Needed to Build on Gains in SES and
Managers, GAO-08-1098 (Washington, D.C.: Sept. 10, 2008).
3
    EEOC, MD-715 Section I: The Model EEO Program.



Page 1                                                   GAO-08-1156T Diversity Report
          practices.4 In addition, we analyzed fiscal years 2002 through 2007 data on
          the number of women and minorities in SES and managerial positions, and
          their equivalents. For the second objective, we reviewed relevant GAO
          orders and procedures, including those on processing discrimination
          complaints and internal controls regarding data quality. We also analyzed
          supporting documentation for the fiscal year 2007 complaint and
          discrimination data and interviewed key staff and managers. For the third
          objective, we examined GAO’s organizational structure, policies and
          procedures; reviewed related reports, and interviewed officials in GAO’s
          Personnel Appeals Board (PAB), OOI, and General Counsel. Our work did
          not include a detailed analysis of OOI to determine what, if any, effect the
          consolidation of two administrative functions (complaint processing and
          diversity management responsibilities) into one office has had. We
          conducted our work from March 2008 to September 2008 in accordance
          with generally accepted government auditing standards. Those standards
          require that we plan and perform the audit to obtain sufficient, appropriate
          evidence to provide a reasonable basis for our findings and conclusions
          based on our audit objectives. We believe that the evidence obtained
          provides a reasonable basis for our findings and conclusions based on our
          audit objectives.


          Between fiscal years 2002 and 2007, GAO increased the diversity of both
Summary   its SES and managerial ranks. Moreover, GAO’s SES and managers in
          fiscal year 2007 were generally more diverse in comparison with executive
          branch agencies and the civilian labor force.5 The agency’s top
          management has made a commitment to diversity management, and our
          review showed that the agency uses a number of leading diversity
          management practices to recruit, hire, promote, and retain its employees.
          In addition, the agency has taken recent steps to identify and address
          potential barriers6 to the advancement and hiring of women, minorities,
          and individuals with disabilities. In June 2008 GAO issued its



          4
          GAO, Diversity Management: Expert-Identified Leading Practices and Agency
          Examples, GAO-05-90 (Washington, D.C.: Jan. 14, 2005)
          5
           The civilian labor force is defined as those 16 and older (including the federal workforce),
          regardless of citizenship, who are employed or looking for work and are not in the military
          or institutionalized. A minimum age of 18 is required for most federal employment.
          6
           EEOC defines barrier as an agency policy, principle, or practice that limits or tends to limit
          employment opportunities for a particular sex, race, or ethnic background, or based an
          individual’s disability status.



          Page 2                                                      GAO-08-1156T Diversity Report
congressionally mandated Workforce Diversity Plan, which assessed the
representation of women, minorities, and people with disabilities
throughout the agency. GAO’s diversity plan did identify representational
gaps in the SES, the manager level in certain job categories, and recent
applicants for the SES candidate program. In response, the agency is
planning to target efforts on the areas of greatest underrepresentation,
such as Hispanics,7 at all levels in the agency, and the Acting Comptroller
General has stated his intention to have GAO prepare these plans annually.

In reviewing GAO’s March 2008 annual report to Congress and its Web
posting of complaint and discrimination data reported for fiscal year 2007,
we found errors and could not verify the reported average number of days
that GAO spent processing complaints. 8 For example, although agency
documents show that six employees filed complaints, GAO reported seven
in its annual report. In addition, GAO inadvertently posted on its intranet
and Web site the wrong data—which were for the first quarter of fiscal
year 2008—as if its were for the full fiscal year 2007. The wrong data
understated the number of complainants by 4, the number of complaints
by 13, and the number of multiple filers by 2. In general, the errors were
the result of inadequate procedures for compiling and reporting all
complaints and the agency not making full use of its electronic complaint
software. GAO’s OOI has revised the fiscal year 2007 data posted to its
Web site and plans to take steps to address other problems we identified.

Although GAO is not required to comply with EEOC management
directives to executive branch agencies, it has followed two of the three
requirements related to independent authority and reporting
relationships.9 Our work identified a concern regarding the consolidation
of personnel-related and discrimination complaint functions in one office.
Specifically, the PAB believes that OOI’s Managing Director is potentially
open to charges of conflict of interest because he is responsible for
processing discrimination complaints and also takes an active role in



7
Hispanics are underrepresented throughout the federal government when compared to the
U.S. civilian labor force, according to OPM.
8
 In accordance with the Notification and Federal Employee Antidiscrimination and
Retaliation Act of 2002 (No FEAR Act), P.L. 107-174, GAO is required to (1) annually report
information related to discrimination, harassment, and related matters; and (2) post
quarterly updates of these data on its Web site.
9
EEOC, Equal Employment Opportunity Management Directive 110, Federal Sector
Complaints Processing Manual (Nov. 9, 1999).



Page 3                                                    GAO-08-1156T Diversity Report
             diversity programs—programs that could themselves could be the subject
             of a discrimination complaint. The PAB has recommended that GAO
             separate these two administrative functions and create a unit exclusively
             for processing discrimination complaints. GAO management has not
             agreed to implement this recommendation, in part because the agency
             believes it would result in an inefficient use of resources given the small
             number of formal discrimination complaints filed each year. However, the
             annual number of formal complaints only partially reflects the office’s
             workload. For example, in fiscal year 2007, although GAO employees filed
             15 formal discrimination complaints, about 130 GAO employees informally
             contacted OOI about their concerns of unfair treatment.


             As you well know, GAO performs a wide range of work. It conducts audits
Background   and evaluations of executive branch agencies, resolves disputes over
             awards of government contracts, and sets auditing and accounting
             standards for the federal government. To do this work, the agency has a
             highly educated, multidisciplinary workforce of around 3,100 employees
             who work in Washington, D.C., and 11 field offices. It employs analysts,
             auditors, economists, lawyers, and other professionals, and more than half
             of the workforce has master’s or doctoral degrees.

             The GAO Personnel Act of 1980 gave the agency its own personnel system,
             separate from that of the executive branch, and it increased the agency’s
             flexibility in hiring, paying, and managing its workforce. The act also
             created the Personnel Appeals Board (PAB), a body independent from
             GAO management, to hear GAO employee issues related to discrimination
             and prohibited personnel actions and to conduct oversight of Equal
             Employment Opportunity (EEO) programs.

             In the past decade, GAO has taken steps toward diversity management,
             which aims to create and maintain a positive work environment where the
             similarities and differences of individuals are valued, so that all can reach
             their potential and maximize their contributions to an organization’s
             strategic goals and objectives. In 2001, GAO created its Office of
             Opportunity and Inclusiveness (OOI) and gave the office responsibility for:
             (1) helping to create a fair and inclusive work environment by
             incorporating diversity principles in GAO’s strategic plan and throughout
             its human capital policies and programs, (2) handling discrimination
             complaints, and (3) managing the agency’s EEO activities. OOI has a total
             of six staff members, including the Managing Director.




             Page 4                                           GAO-08-1156T Diversity Report
                     GAO has made progress in building a more diverse profile of its SES and
GAO Has Improved     managerial ranks. Moreover, as shown in figure 1, GAO’s leadership is
Diversity, and       generally more diverse in comparison with executive branch agencies and
                     the civilian labor force. At the same time, gaps remain in the
Information from     representation of women and minorities in the agency’s leadership. GAO’s
Annual Diversity     June 2008 Workforce Diversity Plan10 has identified low representation of
                     African-American women, Asian-Americans,11 Hispanics, and individuals
Plans Will Help to   with targeted disabilities12 among its SES and managers. The agency has a
Manage Future        variety of leading diversity management practices to help reshape its
Progress             workforce. The challenge facing GAO is to strategically manage its efforts
                     to efficiently and effectively achieve greater diversity in its leadership. The
                     Acting Comptroller General has stated that the agency intends to annually
                     prepare a diversity plan in the spirit of EEOC’s MD-715 guidance, which
                     will provide the agency with information essential to effectively and
                     efficiently managing its diversity efforts.




                     10
                          GAO, Workforce Diversity Plan (June 2008).
                     11
                      For purposes of our work, we are using the term, Asian-Americans to include employees
                     who identify their ethnicity and race as Asian, Native Hawaiian, or other Pacific islander.
                     12
                        Targeted disabilities are deafness, blindness, missing extremities, partial paralysis,
                     complete paralysis, convulsive disorders, mental retardation, mental illness, and distortion
                     of limb and/or spine.



                     Page 5                                                     GAO-08-1156T Diversity Report
Figure 1: Comparison of Percentage of Women and Minorities in GAO’s Senior Executive Service and at Manager Level with
Executive Branch Agencies and Civilian Labor Force, Fiscal Year 2007

SES and equivalents                                                                                           Managers (GS-15 and equivalents)

Percentage                                                                                                    Percentage
50                                                                                                            50
                 45.7                                                                                              45.6          45.7
45 42.9                                                                                                       45

40                                                                                                            40

35                                                                                                            35
                                                                                                                          31.4
          29.1
30                                                                                                            30

25                                                                                                            25

20                                                                                                            20

15                                                                                                    13.3    15                                                                                              13.3
                          11.1           10.1                                                                                             10.6
                                   8.5                                                                                                                   10.1
10                                                                                                            10                                   7.7                                  7.8
                                                                    4.8          4.3            3.6                                                                                           4.3   4.4 4.1
 5                                                                         2.3                                 5                                                                  3.5
                                                     1.3 0.7                             1.6
                                                 0                                                                                                              0    0.9 0.7
 0                                                                                                             0




                                                                                                                                                                    ati /
                                                    ati /
                                an




                                                                                                                                                                 a N ian
                                                                          an




                                                                                                                                              an




                                                                                                                                                                                        an
       en




                                                                                               nic




                                                                                                                          en
                                                 a N ian




                                                                                                                                                                                                       nic
                                                                                                                                                                       ve
                                                       ve
                               ric




                                                                         ric




                                                                                                                                             ric




                                                                                                                                                                                     ric
        m




                                                                                                                         m




                                                                                                                                                               sk Ind
                                                                                           pa
                                               sk Ind




                                                                                                                                                                                                       pa
     Wo




                                                                                                                      Wo
                              me




                                                                    me




                                                                                                                                          me




                                                                                                                                                                                   me
                                                                                         His




                                                                                                                                                                                                    His
                                                                                                                                                            Ala can
                                            Ala can
                          -A




                                                                    -A




                                                                                                                                        -A




                                                                                                                                                                                 -A
                         an




                                                               ian




                                                                                                                                        an




                                                                                                                                                                              ian
                                                                                                                                                             eri
                                             eri
                        ric




                                                                                                                                    ric




                                                                                                                                                           Am
                                          Am




                                                               As




                                                                                                                                                                            As
                    Af




                                                                                                                                   Af




                                                                                       GAO

                                                                                       Executive branch agencies

                                                                                       Civilian labor force

                                                                           Source: IG analysis of GAO and OPM data.




                                                                           Between fiscal years 2002 and 2007, GAO increased the number of women
GAO Has Made Gains                                                         in its SES from 45 to 54, or 20 percent. As a result, the proportion of
in Overall Diversity                                                       women in the SES went from 34 percent to 43 percent. The agency had
                                                                           mixed success in increasing the number of minorities in the SES. The
and Faces Future                                                           agency had a slight increase in the number of African-Americans (from 12
Challenges                                                                 to 14) but a decrease in the number of Asian-Americans (from 8 to 6) and
                                                                           Hispanics (from 4 to 2). In GAO’s June 2008 Workforce Diversity Plan, the
                                                                           agency reported that the percentages of African-American and Asian-
                                                                           American females in the SES have not increased at the same rate as their
                                                                           respective percentages in the agency’s overall workforce. Moreover, the
                                                                           agency reported no representation of individuals with targeted disabilities
                                                                           or American Indians/Alaska Natives in its SES. EEOC considers a low
                                                                           representational rate to be a benchmark or indicator of potential barriers


                                                                           Page 6                                                                                    GAO-08-1156T Diversity Report
to equal participation at all levels in a federal agency that requires further
study.

At the manager level during this same time, GAO steadily increased the
numbers of women and minorities. The manager level is the
developmental or “feeder” pool for the SES. The percentage of women
managers went from 39 percent to 46 percent, while the increases in
minority representation were smaller. For managers, GAO recently
reported low percentages for Hispanic females, African-American males,
and Asian-American females among Band III analysts. The agency also
reported having no African-Americans, Asian-Americans, or Hispanics in
certain manager-level administrative and professional-manager job
categories.

GAO’s SES candidate program has a significant effect on the diversity of
the SES because the agency uses it to promote many managers into the
SES ranks. For entry into the program, the agency uses a competitive
selection process that is open to both internal and external candidates at
the manager level. Participation in the program lasts about 18 months and
includes special training and different work experiences to develop
executive competencies. Upon successful completion of the program,
candidates can gain an SES position without further competition. Since
October 2002, women have composed 22 (or 42 percent) of the 52 total
program participants. Minorities have composed 8 (or 15 percent) of all of
the participants, although there were no American Indians/Alaska Natives.
In addition, the percentage of minorities in the classes has fluctuated—
from a high of 27 percent in 1 year to a low of 9 percent in the September
2007 class.

In June 2008, GAO reported that no Asian-Americans, Hispanic males, or
African-American females applied for the September 2007 class of the SES
candidate program. The Managing Director of OOI said that the low
representation of minorities among recent applicants demonstrates that
without constant vigilance, progress could be lost, even though the agency
has generally been successful at attracting minorities to its SES candidate
program.

In the short term, the SES candidate program has the potential to help
GAO obtain a larger pool of diverse candidates for the SES because it
accepts applicants from both inside and outside the agency. In recent
years, the agency has hired two external applicants for this program.
According to agency officials we interviewed, past experience has shown
that external candidates often face an additional challenge of assimilating

Page 7                                            GAO-08-1156T Diversity Report
                            into GAO’s SES culture, which is steeped in audit methodology and
                            practices, while at the same time they must lead staff who are
                            knowledgeable about these practices and procedures.

                            GAO also directly hires employees at the SES and manager level. Direct
                            hiring has an effect on diversity, and in the short term, the hiring of
                            women and minorities could help improve diversity at these levels.
                            Between October 2002 and May 2008, GAO hired a total of 67 individuals at
                            the SES and manager level. Of these, 10 (15 percent) were minority men
                            and women and 21 (31 percent) were Caucasian females.

                            In its EEO oversight role, PAB has recommended that GAO review its SES
                            selection process, including the SES candidate program, to determine
                            whether any barriers may be having a negative effect on representation. In
                            response, the agency has stated that it regularly reviews the SES selection
                            processes and discusses how it can attract a greater diversity of
                            applications, including recruitment sources and advertising with special
                            interest groups.


GAO Uses Leading            GAO has in place many of the leading diversity management practices
Practices, and Annual       identified in EEOC’s MD-715 guidance for a model EEO program and in a
Diversity Plans Can         GAO study of nine expert-identified leading diversity management
                            practices. For example, GAO’s top executives, including the current Acting
Provide Essential           Comptroller General and former Comptroller General, have made a
Information for Effective   commitment to diversity management—a best practice identified by both
Management                  the EEOC and diversity management experts. For the past several years,
                            diversity management has been a regular item on the agenda at periodic
                            meetings of GAO’s SES. Furthermore, GAO has taken recent action that
                            will identify representational gaps and eliminate unnecessary barriers to
                            hiring and advancement of women, minorities, and people with
                            disabilities.

                            In accordance with these leading practices, GAO has made diversity part
                            of its 5-year strategic plan, which sets out the agency’s long-term goals and
                            objectives.13 One of the agency’s four strategic goals is to maximize the
                            value of GAO by being a model federal agency and world-class
                            professional services organization. One objective for this goal is to be an
                            employer of choice with an environment that is fair and unbiased and that


                            13
                                 GAO, GAO Strategic Plan 2007-2012, GAO-07-1SP (Washington, D.C.: March 2007).



                            Page 8                                                   GAO-08-1156T Diversity Report
values opportunity and inclusiveness. In addition, GAO has incorporated
diversity management in the performance appraisal systems for its SES
and other supervisors, as well as adopted mediation to voluntarily resolve
complaints of discrimination. Moreover, as part of an ongoing effort to
involve employees in its diversity management, the agency recently
created a Diversity Committee with representatives from all employee
groups, such as Blacks In Government, the Advisory Council for Persons
with Disabilities, the Asian American Liaison Group, the Gay and Lesbian
Employees Association, the Hispanic Liaison Group, and the International
Federation of Professional and Technical Engineers. The committee’s
members will comment on new or revised GAO policies, procedures,
plans, and practices pertaining to diversity issues.

While GAO has improved the diversity of its SES and managerial ranks and
uses many leading diversity management practices, the agency has not had
a process for developing essential information on a regular basis to
effectively manage its diversity efforts. However, in June 2008 GAO issued
its Workforce Diversity Plan, as requested in the committee report for the
legislative branch appropriations bill for fiscal year 2008.14 Executive
branch agencies are required to do this plan annually. In developing its
diversity plan, GAO chose to follow EEOC’s MD-715—the same guidance
executive branch agencies are required to use. In accordance with EEOC
MD-715,15 GAO analyzed workforce data to assess demographic trends and
to determine whether there were differences in the representation of
minorities in the agency’s workforce when compared with the appropriate
benchmarks. As a result, the agency now has baseline data on the diversity
of its workforce. In addition, it has identified a number of potential
barriers that may impede fair and open competition in the workplace. The
plan also includes the GAO’s 2008-2009 Workforce Diversity Action Plan,
which lists three broad goals: (1) recruit more Hispanics, African-
Americans, and staff with disabilities; (2) enhance staff-development
opportunities that prepare staff for upper-level positions; and (3) create a
more inclusive environment. While the action items are short-term
activities, such as developing a diversity recruitment and hiring plan by
April 2009, some could lead to long-term changes that affect diversity.



14
   U.S. House of Representatives, Subcommittee on Legislative Branch, Committee on
Appropriations, Legislative Branch Appropriations Bill, 2008, Report 110-198 (June 19,
2007). The committee report requested an affirmative action plan.
15
 EEOC, Management Directive 715 (MD-715) Section II: Barrier Identification and
Elimination.


Page 9                                                  GAO-08-1156T Diversity Report
                      Last year, the agency awarded a contract to assess the factors that may
                      explain statistically significant differences in rating averages between
                      African-American and Caucasian analysts from 2002 to 2006. A final report
                      was issued on April 25, 2008, and it included more than 25
                      recommendations. Within a week, the Acting Comptroller General issued a
                      memorandum to employees expressing his commitment to address the
                      report’s recommendations. GAO has already undertaken steps to
                      implement some of the recommendations and to establish a plan to
                      implement other recommendations.


                      The No FEAR Act requires GAO to provide data on its complaints and
Fiscal Year 2007      discrimination cases annually in a report to Congress and to post updates
Complaints and        of current fiscal year data on its Web site. In the annual report, we found
                      errors in the fiscal year 2007 data for the number of complaints, the
Discrimination Data   number of GAO employees who filed complaints, and the basis of the
Contained Errors      complaints (such as race, gender, and religion). We also could not verify
                      the fiscal year 2007 data reported for complaint processing times. In
                      addition, when GAO posted complaint data earlier this year on its intranet
                      and Web site, it inadvertently published the wrong data for fiscal year
                      2007. We determined that these and other errors largely resulted from
                      insufficient controls over the compilation and reporting of the data,
                      including not making full use of its electronic complaint software.

                      In its March 2008 annual report to Congress, GAO had errors in fiscal year
                      2007 complaints and discrimination data. Table 1 shows a comparison of
                      correct data to data included in GAO’s annual report regarding the number
                      of complainants, complaints, and repeat filers—those who have previously
                      filed a complaint.

                      Table 1: Comparison of Correct and Reported Complaint Data for Fiscal Year 2007

                       Type of data                             Correct data      Data in GAO annual report
                       Complainants                                       6                                7
                       Complaints                                        15                               16
                       Repeat filers                                      2                                2
                      Source: IG analysis of GAO information.

                      The annual report also contains errors related to the basis, or nature, of
                      the complaint. For example, the annual report overstates by two the
                      number of complaints based on religion, while it understates by eight the
                      number of complaints based on reprisals.



                      Page 10                                                  GAO-08-1156T Diversity Report
We traced the reasons for the errors in the annual report back to
insufficient internal controls to ensure the accuracy and completeness of
the data. For example, in developing the data, the responsible person did
not include all of the complaints or all of the information about the
complaints processed. Part of the problem involved complaints that OOI
did not process because they were filed against a person within OOI.16 We
found that OOI did not have procedures on how to track complaints
processed outside of OOI or how to report on such complaints for
purposes of the No FEAR Act. In addition, the agency had no written
procedures regarding the development and verification of the data to
ensure completeness and accuracy, and we did not find any indication in
the records we reviewed that the person’s work had been verified or
reviewed by a supervisor.

Furthermore, we could not verify the processing times for fiscal year 2007
complaints in the annual report. We found that OOI, the unit responsible
for developing complaint data, does not have written procedures for
calculating and verifying the average number of days that complaints were
in the investigation stage and awaiting final action by the agency. To
compute these processing times, OOI staff used an informal process and
manually did the calculations. However, we could not verify the
calculations because the person who made the calculations had little
experience in this area, and the records of their calculations were
incomplete. In addition, OOI did not make full use of its electronic
complaint tracking software, which has the capabilities to track and
determine complaint processing times, because of past difficulties in using
the software. GAO specifically purchased this software 5 years ago to
improve the accuracy of its complaint data. In response to these findings,
the agency is planning to revise its procedures to improve the accuracy of
processing times, including making full use of this software.

We also found that GAO inadvertently posted on its intranet and Web site
the wrong data for fiscal year 2007. The posted data—which were for the
first quarter of fiscal year 2008—were different from the correct data. The
posted data understated the number of complainants by 4, the number of
complaints by 13, and the number of multiple filers by 2. The posted data


16
   As set forth in GAO’s discrimination complaint resolution process order, generally GAO
employees are to file discrimination complaints with OOI, which processes them. For
complaints filed against OOI staff or management, the order provides for a GAO top
executive to assign such complaints to other GAO managers so they may process the
complaints instead of OOI, as occurred in fiscal year 2007.



Page 11                                                   GAO-08-1156T Diversity Report
                        also included errors regarding the basis of complaints and the complaint
                        processing times.


                        To ensure the fair and impartial processing of discrimination complaints,
Concerns Continue       EEOC’s guidance on the federal sector EEO process for executive branch
about Integration of    agencies has three requirements regarding the reporting relationship and
                        independence of the heads of agency EEO offices.17 Although GAO is not
Discrimination          required to follow EEOC’s guidance, it adheres to two of the three
Complaint Processing    requirements. We identified concerns about the agency not following the
                        third recommendation—keeping the EEO functions separate from the
and Diversity Efforts   personnel function. PAB, in its EEO oversight capacity of GAO, has
                        recommended that the agency create a separate unit solely to process
                        discrimination complaints.

                        EEOC’s Management Directive 110, among other things, has three
                        requirements for the head of agency EEO offices regarding reporting
                        relationships and independence. First, to underscore the importance of
                        equal employment opportunity to an agency’s mission and to ensure that
                        the EEO Director is able to act with the greatest degree of independence,
                        it requires that the EEO Director report directly to the head of the agency.
                        Second, to enhance the credibility of the EEO office and the integrity of
                        the EEO complaints process, it requires that the EEO fact-finding function
                        in general, and the legal sufficiency reviews of final agency decisions for
                        discrimination complaints in particular, not be done by attorneys in a unit
                        that represents or defends the agency in such disputes. Third, to maintain
                        the integrity of the EEO investigative and decision-making processes, the
                        guidance requires that the EEO functions, especially investigations and
                        decision making, must be kept separate from the personnel function to
                        avoid conflicts of position or conflicts of interest, as well as the
                        appearance of such conflicts.

                        We found no problems with two requirements. The OOI Managing Director
                        reports directly to the Comptroller General, the head of GAO. In addition,
                        the OOI Managing Director, who is an attorney, does legal sufficiency
                        reviews of final agency decisions and arranges for independent
                        investigations. For the small number of complaints that OOI staff have not
                        directly processed, GAO’s Chief Administrative Officer assigns a manager
                        to act on OOI’s behalf, while General Counsel assigns an attorney who is


                        17
                             EEOC, Management Directive 110.



                        Page 12                                         GAO-08-1156T Diversity Report
not in GAO’s Legal Services unit to assist the manager. Legal Services is
part of GAO’s Office of General Counsel and serves as the agency’s in-
house legal counsel and represents the agency in legal disputes.

PAB has reported about the potential for a real or apparent conflict of
interest because the OOI Managing Director is responsible for overseeing
discrimination complaints while having a substantial role in GAO’s human
capital activities, including diversity programs—which is a personnel
function. PAB has pointed out that this situation does not conform to the
EEOC directive, which states, “. . . the same agency official responsible for
executing and advising on personnel actions may not also be responsible
for managing, advising, or overseeing the EEO pre-complaint or complaint
processes.” An illustrative example of a potential area of conflict is the
OOI Managing Director’s role in reviewing employee performance ratings.
He reviews selected ratings before they are final to identify any potential
EEO concerns, and he then discusses his concerns with the appropriate
SES official. Therefore, if an employee were to file a discrimination
complaint because of a rating, the OOI Managing Director would have
been involved in a review for potential EEO concerns and still would be
responsible for the fair and impartial processing of the complaint.

PAB has recommended that GAO create a separate complaint unit to
process discrimination complaints exclusively and with no responsibility
for personnel, or human capital, issues. GAO has stated that it does not
believe that creation of a separate unit is warranted due to the small
number of discrimination complaints filed each year and that the
appearance of any conflict of interest is mitigated by GAO contracting out
its complaint investigations. PAB continues to believe that a structural
separation between the two administrative functions is warranted. The
scope of our review did not include a detailed analysis of OOI to determine
what effect, if any, the consolidation of these functions has had on
complaint processing.

Moreover, the small number of formal complaints does not reflect the
office’s workload, the majority of which involve informal contacts with the
office and its efforts to resolve issues raised by GAO employees without
the filing of a formal complaint. For example, in fiscal year 2007, GAO
employees filed 15 discrimination complaints, while about 130 employees
made informal contacts to OOI. These contacts concerned a range of
issues, including appraisals, promotion, work assignments, harassment,
work environment, feedback, communication, and training.




Page 13                                          GAO-08-1156T Diversity Report
              Although GAO has made progress, the task ahead—further increasing the
Conclusions   diversity of its leadership and workforce—is challenging. It will require a
              concerted effort that must be sustained over time. The small gains in
              minority representation in recent years will not be sufficient for achieving
              a more diverse leadership.

              To move forward, GAO needs to establish as part of its long-term
              approach, an annual plan that evaluates its workforce data and helps
              identify and remove unnecessary barriers to the advancement and hiring
              of women, minorities, and people with disabilities. The agency has taken a
              key step toward this end with its June 2008 Workforce Diversity Plan and
              the Acting Comptroller General’s stated intention to producing a diversity
              plan annually. Because of GAO’s transitional state with an Acting
              Comptroller General, we believe the agency needs to formally incorporate
              its intention into the order governing OOI’s responsibilities. By formally
              adopting the MD-715 annual review and evaluation process, GAO will be
              better position to sustain attention on the effects of its initiatives, use the
              evaluations as a basis for any strategic improvements, and hold agency
              leadership accountable.

              In addition, GAO needs to improve its internal complaint processing
              procedures and the procedures related to compiling and reporting on
              those complaints. This will help to avoid recent problems and ensure that
              complaint data provided to others are accurate and reliable.

              GAO may want to monitor the situation related to its decision not to create
              a separate unit for processing discrimination complaints. Some of the
              factors that the agency considered in its original decisions seem to have
              changed, and the agency does face some risk of real or apparent conflicts
              of position or conflicts of interest. Further, the number of employees
              making informal contacts to OOI is substantial compared with the number
              of discrimination complaints.

              We have made recommendations in our report that is being released
              today, and GAO has generally agreed with these recommendations.


              Mr. Chairman, this concludes my prepared statement. I would be happy to
              respond to any questions you or other Members of the Subcommittee may
              have at this time.




              Page 14                                           GAO-08-1156T Diversity Report
                    If you have any questions about this statement, please contact me at
Contact and Staff   (202) 512-5748 or garciaf@gao.gov. Key contributors to this statement
Acknowledgments     were Cathy L. Helm (Assistant Director) and Keith Steck.




(998269)
                    Page 15                                        GAO-08-1156T Diversity Report
This is a work of the U.S. government and is not subject to copyright protection in the
United States. The published product may be reproduced and distributed in its entirety
without further permission from GAO. However, because this work may contain
copyrighted images or other material, permission from the copyright holder may be
necessary if you wish to reproduce this material separately.
GAO’s Mission            The Government Accountability Office, the audit, evaluation, and
                         investigative arm of Congress, exists to support Congress in meeting its
                         constitutional responsibilities and to help improve the performance and
                         accountability of the federal government for the American people. GAO
                         examines the use of public funds; evaluates federal programs and policies;
                         and provides analyses, recommendations, and other assistance to help
                         Congress make informed oversight, policy, and funding decisions. GAO’s
                         commitment to good government is reflected in its core values of
                         accountability, integrity, and reliability.

                         The fastest and easiest way to obtain copies of GAO documents at no cost
Obtaining Copies of      is through GAO’s Web site (www.gao.gov). Each weekday, GAO posts
GAO Reports and          newly released reports, testimony, and correspondence on its Web site. To
                         have GAO e-mail you a list of newly posted products every afternoon, go
Testimony                to www.gao.gov and select “E-mail Updates.”

Order by Mail or Phone   The first copy of each printed report is free. Additional copies are $2 each.
                         A check or money order should be made out to the Superintendent of
                         Documents. GAO also accepts VISA and Mastercard. Orders for 100 or
                         more copies mailed to a single address are discounted 25 percent. Orders
                         should be sent to:
                         U.S. Government Accountability Office
                         441 G Street NW, Room LM
                         Washington, DC 20548
                         To order by Phone: Voice:      (202) 512-6000
                                            TDD:        (202) 512-2537
                                            Fax:        (202) 512-6061

                         Contact:
To Report Fraud,
Waste, and Abuse in      Web site: www.gao.gov/fraudnet/fraudnet.htm
                         E-mail: fraudnet@gao.gov
Federal Programs         Automated answering system: (800) 424-5454 or (202) 512-7470

                         Ralph Dawn, Managing Director, dawnr@gao.gov, (202) 512-4400
Congressional            U.S. Government Accountability Office, 441 G Street NW, Room 7125
Relations                Washington, DC 20548

                         Chuck Young, Managing Director, youngc1@gao.gov, (202) 512-4800
Public Affairs           U.S. Government Accountability Office, 441 G Street NW, Room 7149
                         Washington, DC 20548




                         PRINTED ON      RECYCLED PAPER
